No. 19-7

 

IN THE

Supreme Court of the United States

SEILA Law LLC,

Petitioner,
Vv.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

CERTIFICATE OF SERVICE

I, Brian R. Frazelle, do hereby declare that on January 22, 2020, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Current and Former Members of Congress as Amici Curiae in Support of

Affirmance on counsel for each party to the above proceeding as follows:

Kannon K. Shanmugam

Paul, Weiss, Rifkind, Wharton &
Garrison LLP

2001 K Street, NW

Washington, DC 20006
kshanmugam@paulweiss.com
(202) 223-7300

Counsel of Record for Petitioner

Noel J. Francisco

Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

(202) 514-2217

Counsel of Record for Respondent
Paul D. Clement

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com
(202) 389-5000

Counsel of Record for Court-appointed amicus curiae in support
of the judgment below on the question presented by the petition

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 22, 2020.

Ben Ip
Brian R. Frazelle
Counsel for Amici Curiae
